No. 19-

 

IN THE

Supreme Court of the United States

CATHERINE STOUFFER, ET AL.,

PETITIONERS,
v.

UNION PACIFIC RAILROAD Co.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE COURT OF APPEALS OF TEXAS,
ELEVENTH DISTRICT

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,707 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 29, 2019.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
